        OFFICE OF
   INSPECTOR GENERAL

Semiannual Report to Congress




October 1, 2003 – March 31, 2004

  Federal Election Commission
  999 E Street, N.W., Suite 940
    Washington, DC 20463

          May 2004
                              TABLE OF CONTENTS



EXECUTIVE SUMMARY--------------------------------------------------------------1

FEDERAL ELECTION COMMISSION----------------------------------------------7

AUDIT-----------------------------------------------------------------------------------9

AUDIT FOLLOW-UP------------------------------------------------------------------11

FINANCIAL STATEMENT AUDIT PLANNING-----------------------------------12

CONGRESSIONAL REQUEST-------------------------------------------------------15

HOTLINE COMPLAINT--------------------------------------------------------------17

ADDITIONAL OFFICE OF INSPECTOR GENERAL
ACTIVITY------------------------------------------------------------------------------18

ECIE AND PCIE ACTIVITY---------------------------------------------------------20

REPORTING REQUIREMENTS---------------------------------------------------22

TABLE I - QUESTIONED COSTS--------------------------------------------------23

TABLE II - FUNDS PUT TO BETTER USE---------------------------------------24

TABLE III - SUMMARY OF AUDIT REPORTS WITH
             CORRECTIVE ACTIONS OUTSTANDING
             FOR MORE THAN SIX MONTHS---------------------------------25

OIG STRATEGIC PLAN-------------------------------------------------------------26

CONTACTING THE OFFICE OF INSPECTOR
GENERAL-----------------------------------------------------------------------------27




October 1, 2003 – March 31, 2004
                             EXECUTIVE SUMMARY




        In accordance with the requirements of the Inspector General Act of 1978,

as amended, I am submitting the Federal Election Commission (FEC), Office of

Inspector General (OIG) Semiannual Report to Congress covering the period

October 1, 2003 through March 31, 2004.



        The objectives of the Office of Inspector General are to 1) conduct and

supervise audits and investigations relating to the Federal Election Commission’s

programs and operations; 2) detect and preventing fraud, waste, and abuse of

agency programs and operations while providing leadership and coordination; 3)

recommend policies designed to promote economy, efficiency, and effectiveness

of the establishment; and 4) keep the Commissioners and Congress fully and

currently informed about problems and deficiencies in FEC agency programs and

operations, and the need for corrective action. In order to accomplish these

objectives and improve the accountability and performance of the Federal

Election Commission, the OIG relies on audits, investigations, and inspections

conducted by the OIG staff.



        Major activities and accomplishments relevant to the Federal Election

Commission, Office of Inspector General are summarized in the Executive

Summary. Detailed information on a specific topic can be found in subsequent

sections of this report.

October 1, 2003 – March 31, 2004                                               Page 1
        The audit entitled Audit of the FEC’s Public Disclosure Process –

(OIG-02-03) was originated during a previous reporting period. The two major

objectives associated with the audit are 1) to determine the extent, if any, of

disclosure differences between candidate contributions reported by political

committees and related committee contributions reported received by

candidates; and 2) determine whether an adequate process is in place to remedy

reporting discrepancies.



        During this reporting period the Office of Inspector General has made

significant progress in executing the audit pertaining to the FEC public disclosure

system. The auditors met and discussed the results of a preliminary review of

various campaign finance transactions with a dollar value difference between

what the political action committee (PAC) reported vs. what the candidate

reported. Based on this discussion the auditors selected and tracked additional

transactions to include only those with a difference of $10,000-$20,000.

Pertinent information from each transaction was documented to include the

amount of the transaction and date reported by the committee/PAC and date

recorded by the candidate.



        Additional work related to the audit included randomly selecting one

candidate (incumbent only) to compare balances of candidate receipts vs.

political committee disbursement. The OIG has reviewed a large quantity of

material such as quarterly reports and amendments (if applicable), as well as

October 1, 2003 – March 31, 2004                                                  Page 2
mid-year and year-end reports filed by candidates. The auditors also obtained

and evaluated the summary report of committees who gave to the candidates -

the summary report summarizes campaign finance transactions reported by the

PAC or Non-Party committees. The auditors then traced each transaction, as

reported by the committee/PAC, to the corresponding quarterly report filed by

the candidate. The OIG auditors met to discuss the audit objectives, the related

audit steps, and work completed thus far.



        A significant amount of time has been and continues to be devoted to

completing this assignment. The section entitled Audit, starting on page 9,

contains more detailed information.



        For many years improving financial management and information security

has been an important priority of the federal Government. On November 7,

2002, the President signed Public Law 107-289, The Accountability of Tax

Dollars Act of 2002, which states that Federal entities are required to have their

financial statements audited annually by the agency Inspector General. Starting

with fiscal year 2004, and annually thereafter, the FEC Inspector General is

required to perform an audit of the agency’s financial statements.



        The President’s goal is to ensure that federal financial management

systems produce accurate and timely information to support operating, budget,

and policy decisions. The OIG’s goal is to ensure that the agency’s financial

operations are properly conducted, financial statements are presented fairly, and

October 1, 2003 – March 31, 2004                                                Page 3
applicable laws and regulations are being followed. The OIG is preparing to meet

this obligation and has contracted with an independent certified public

accounting (CPA) firm to conduct the audit of the FEC’s financial statements.

Additional information pertaining to this topic is located on page 12, the

Financial Statement Audit Planning section of this report.



        Prior to the end of this reporting period, the OIG received a congressional

request from Senator Jack Reed regarding electronic voting machines. The letter

from Senator Reed stated that he was writing on behalf of his constituents in

Rhode Island. In order to accurately respond to the concerns of the constituents,

Senator Reed contacted the OIG for assistance.



        The auditor responsible for this assignment provided Senator Reed with

background information about the FEC and its purpose for being established.

Additional information was also given pertaining to the Commission’s Office of

Election Administration (OEA – the OEA transferred to the EAC on April 1,

2004) and the newly created Election Assistance Commission (EAC) along with

information concerning electronic voting machines. For detailed information see

the Congressional Request section located on page 15.



        Inspectors General are responsible for ensuring efficiency and integrity in

the programs and operations of the agencies they oversee. The OIG hotline

provides a prompt, effective, and confidential channel for reporting fraud, waste,

abuse, and mismanagement to the Inspector General. Individuals with

October 1, 2003 – March 31, 2004                                              Page 4
information regarding the manner in which the FEC executes its programs and

operations are encouraged to contact the Office of Inspector General by calling,

visiting, e-mailing or sending correspondence to our office.



        The OIG is currently addressing a hotline complaint received from an

individual who requested confidentiality. The complaint was recorded on the

OIG’s Procedures for Processing Hotline Calls form, which states a preliminary

inquiry must be conducted on all allegations reported to the OIG. During this

reporting period, the OIG conducted a preliminary inquiry pertaining to the

hotline complaint. Once the preliminary inquiry is completed, the OIG will

determine whether or not a full investigation is warranted. For complete details,

see the section entitled Hotline Complaint, which is on page 17.



        In addition to audits, investigations, and reviews, the OIG also performs

an array of other activities. This section is intended to provide a brief synopsis of

the general activities pertaining to the OIG. Starting with page 18, in the section

entitled Additional Office of Inspector General Activities, detailed

information regarding the additional activities of the FEC/OIG can be found.



    •   The FY 2004 Omnibus Appropriations Bill requires all Inspectors General

        to submit a report to Congress on the implementation of the Rural

        Development Act of 1972. Research as been conducted and the report will

        be finalized in June (see page 18).



October 1, 2003 – March 31, 2004                                                Page 5
    •   The Commission’s Policy Legal Review Administrative Law office

        contacted the OIG regarding the OIG’s contract authority. FEC

        management asked the Administrative Law office to provide a legal

        opinion on whether the FEC OIG may enter into contracts absent

        Commission approval. To discuss the issue the OIG met with an attorney

        representing the Administrative Law office (see page 18).




October 1, 2003 – March 31, 2004                                            Page 6
               THE FEDERAL ELECTION COMMISSION


          The Federal Election Commission is an independent, regulatory agency

responsible for administering and implementing the Federal Election Campaign

Act (FECA). The FEC is governed by a six member commission who are

appointed for six year terms by the President of the United States, with the advice

and consent of the Senate. The FECA likewise established the positions of Staff

Director and General Counsel, who are appointed by the Commissioners.




                    OFFICE OF INSPECTOR GENERAL


          The Inspector General Act of 1978 (P.L. 100-504), as amended in 1988,

states that the Inspector General is responsible for: 1) conducting and

supervising audits and investigations relating to the Federal Election

Commission’s programs and operations; 2) detecting and preventing fraud,

waste, and abuse of agency programs and operations while providing leadership

and coordination; 3) recommending policies designed to promote economy,

efficiency, and effectiveness of the establishment; and 4) keeping the

Commissioners and Congress fully and currently informed about problems and

deficiencies in FEC agency programs and operations, and the need for corrective

action.




October 1, 2003 – March 31, 2004                                             Page 7
        One of the goals of the Office of Inspector General is to assist the FEC in

operating more efficiently and effectively by identifying ways to improve the

FEC’s programs. To accomplish this goal the OIG conducts audits, inspections,

and investigations, and makes recommendations to and consults with FEC

management on findings and conclusions. Including the Inspector General,

Lynne A. McFarland - the OIG staff consists of four (4) employees - two Auditors,

and a Special Assistant to the Inspector General.




October 1, 2003 – March 31, 2004                                                Page 8
                                            AUDIT


TITLE:                             Audit of the FEC’s Public Disclosure Process

ASSIGNMENT #:                      OIG – 02-03

RELEASE DATE:                      In Progress

PURPOSE:                           The OIG’s reason for conducting the audit is to review

how the Commission carries out its disclosure responsibilities; and how the use

of technology and controls to monitor and remedy reporting discrepancies can be

improved. The primary objectives of the audit are to: 1) determine the extent, if

any, of disclosure differences between candidate contributions reported by

political committees and related committee contributions reported received by

candidates; and 2) determine whether an adequate process is in place to remedy

any reporting discrepancies.



        At the start of this reporting period, the OIG auditors met to discuss the

results of the preliminary review of various campaign finance transactions with a

dollar value difference between what the committee reported vs. what the

candidate reported. Based on this discussion, the auditors refined the search

criteria to include only those transactions with a difference of $10,000 to

$20,000.



        Other work related to this audit included randomly selecting one

candidate (incumbent only) to compare balances of candidate receipts vs.

October 1, 2003 – March 31, 2004                                                    Page 9
political committee disbursements. The auditors retrieved and printed a

summary listing of all reports filed by or for the candidate. They also retrieved

and printed the summary report of committees who gave to the candidate; this

report summarizes campaign finance transactions reported by the PAC or Non-

Party committees. Quarterly reports and amendments (if applicable), as well as

mid year and year end reports filed by the candidate were obtained and reviewed

by the auditors. The auditors then traced each transaction, as reported by the

committee/PAC, to the corresponding quarterly report filed by the candidate.



        Pertinent information from each transaction was documented to include

the amount of the transaction and date reported by the committee/PAC and date

recorded by the candidate. Based on this data, the average number of days

between financial transactions reported by the committee/PAC vs. candidate

reported was determined and summarized in the work papers.



        To determine what types of issues are given high priority or consideration

within the review and referral process, the OIG examined the FEC Reports

Analysis Division’s (RAD) electronic review requirements process documents. To

obtain information regarding the new client server disclosure system and the

electronic review process, the Commission’s IT Strategic & Performance Plan for

FY 2004-2008 was obtained and reviewed and the pertinent information was

documented and included in the audit work papers.




October 1, 2003 – March 31, 2004                                             Page 10
                                   AUDIT FOLLOW-UP



TITLE:                             Agency Controls Governing the Process for
                                   Procurement of Vendor Training Services


ASSIGNMENT #:                      OIG – 00-01

RELEASE DATE:                      September, 2000
 (audit report)

WEBSITE ADDRESS:                   http://www.fec.gov/fecig/training.pdf

PURPOSE:                           This audit was originally conducted to assess the

effectiveness and efficiency of management controls governing the procedures for

the procurement of training services from outside vendors.



        The Acting Personnel Director contacted the IG office to obtain our

opinion on the disposition of training records when an employee separates from

the Federal Election Commission. To address the question, the OIG reviewed the

audit report and the Code of Federal Regulations on record retention for training

records. The OIG also consulted the National Archives and Records

Administration (NARA) Website for guidance on Federal agency records

management.



        Although management provided the OIG with draft procedures during the

previous reporting period, the final version of the training procedures must be

finalized before the OIG considers the four (4) outstanding recommendations

closed.

October 1, 2003 – March 31, 2004                                                   Page 11
             FINANCIAL STATEMENT AUDIT PLANNING


        For many years improving financial management and information security

has been an important priority of the federal Government. On November 7,

2002, the President signed Public Law 107-289, The Accountability of Tax

Dollars Act of 2002, which states that Federal entities are required to have their

financial statements audited annually by the agency Inspector General. Starting

with fiscal year 2004, and annually thereafter, the FEC Inspector General is

required to perform and/or oversee the audit of the agency’s financial statements.



        The President’s goal is to ensure that federal financial management

systems produce accurate and timely information to support operating, budget,

and policy decisions. The OIG’s goal is to ensure that the agency’s financial

operations are properly conducted, financial statements are presented fairly, and

applicable laws and regulations are being followed.



        To prepare for and meet this obligation, the OIG consulted other

Inspectors General, as well as the General Services Administration (GSA) to

obtain guidance on the contracting process. The OIG contacted the Accounting

Office and the Planning and Management Director to obtain information on the

FEC’s accounting and budget system to incorporate into the statement of work. A

considerable amount of time was spent preparing the statement of work which

was used to procure the independent public accounting (IPA) firm.

October 1, 2003 – March 31, 2004                                                Page 12
        An evaluation panel, consisting of the Inspector General and both OIG

auditors, evaluated each of the technical proposals received from the offerors in

order to select a certified public accounting (CPA) firm that offered the best

overall value. Each proposal was analyzed based on the requirements listed in

the Statement of Work. Each panel member awarded points to the offerors based

on their proposals and summary evaluation worksheets of technical and past

performance were completed for each proposal. After each vendor had been

evaluated separately by the panel, the panel met to discuss and perform an

overall analysis of the contract proposals.



        The OIG reviewed the legal offers submitted by each of the vendors. The

legal offers included evidence of continuing professional education credits for

contractor personnel, as well as documentation of a recent positive peer review.

One of the panel members reviewed the signed statements by the CPA firms,

attesting that no actual or potential conflicts of interest exist between the vendor

and the FEC.



        A meeting was held with the FEC’s contracting officer, at which time the

proposals received from the CPA firms were discussed. The firm that presented

the best, overall value was selected. The FEC/OIG elected to award the contract

to Clifton Gunderson LLP, the 12th largest CPA and consulting firm in the United

States, with a staff exceeding 1,400 and offices in 13 states – including the

District of Columbia.

October 1, 2003 – March 31, 2004                                                 Page 13
        An entrance conference was arranged with management to discuss the

audit objectives and also provided an opportunity for management to meet some

of the Clifton Gunderson employees, as well as ask questions and discuss any

issues relevant to the audit. The contractors and the OIG intend to meet

regularly, and plan to keep Management apprised of the firm’s work throughout

the audit.




October 1, 2003 – March 31, 2004                                           Page 14
                         CONGRESSIONAL REQUEST


        During this reporting period, the OIG received a congressional request

from Senator Jack Reed regarding electronic voting machines. The letter from

Senator Reed stated that he was writing on behalf of his constituents in Rhode

Island.



        The OIG responded to the request and provided Senator Reed with

background information about the Federal Election Commission (FEC) and its

purpose for being established. Additional information pertaining to the

Commission’s Office of Election Administration (OEA – the OEA transferred to

the EAC on April 1, 2004) and the newly created Election Assistance Commission

(EAC) was also provided. The OEA transferred to the EAC on April 1, 2004.



        The Federal Election Commission was established in 1975 to administer

and enforce the Federal Election Campaign Act (FECA). The FEC administers

and enforces the FECA through four core programs – 1) promoting disclosure of

campaign finance reports; 2) enforcing limitation provisions of FECA; 3)

implementing the presidential public funding provisions; and 4) enhancing

federal election administration.



        The Commission’s Office of Election Administration (OEA) was created to

assist state and local election officials charged with administering federal

October 1, 2003 – March 31, 2004                                               Page 15
elections. The OEA provided for the compilation and distribution of information

and research on all matters related to election administration. The office helped

states implement the National Voter Registration Act of 1993 (NVRA), which

Congress enacted to facilitate and increase voter registration by providing

opportunities to register at a number of state agencies, using a number of

registration methods.



        In addition, the OEA issued Voting Systems Standards for release and

publication. The standards are intended to ensure that computer-based election

equipment certified for purchase by participating states will be accurate, reliable

and dependable. To assist and provide guidance to states, voting system vendors

and local jurisdictions in the transition to the 2002 standards, the Commission

also approved an Implementation Plan for the Voting System Standards.



        Public Law 107-252 – Help America Vote Act of 2002 (HAVA), required

the establishment of a new agency, The Election Assistance Commission. Under

HAVA, the EAC is responsible for developing voluntary voting machine

standards, certifying voting systems, auditing grant recipients, and studying a

number of issues in election administration. The EAC is also responsible for the

distribution of more than $2 billion to states for the purchase of new voting

machines and new voter education programs, as well as monitoring and

publicizing each state’s HAVA planning and implementation.




October 1, 2003 – March 31, 2004                                                Page 16
                              HOTLINE COMPLAINT


        Inspectors General are responsible for ensuring efficiency and integrity in

the programs and operations of the agencies they oversee. The OIG hotline

provides a prompt, effective, and confidential channel for reporting fraud, waste,

abuse, and mismanagement to the Inspector General. Individuals with

information regarding the manner in which the FEC executes its programs and

operations are encouraged to contact the Office of Inspector General by calling,

visiting, e-mailing or sending correspondence to our office. Regardless of the

method, all information received is handled promptly and efficiently.



        Currently being addressed during this reporting period is a hotline

complaint the OIG received from an individual who requested confidentiality.

The OIG commenced a preliminary inquiry which included obtaining and

reviewing records from the Accounting Office. Once further research is

completed, the OIG will make a determination as to whether or not a full

investigation is necessary.




October 1, 2003 – March 31, 2004                                              Page 17
 ADDITIONAL OFFICE OF INSPECTOR GENERAL ACTIVITY


        All legislation, as compiled by the Commission’s Congressional Affairs

Office, was reviewed by the Inspector General, as required by the Inspector

General Act of 1978, as amended. The Inspector General reviews and comments,

when appropriate, on all legislation provided by the PCIE/ECIE Legislative

Committee. In addition, the Inspector General routinely reads all Commission

agenda items and attends the Finance Committee meetings.



    •   The FY 2004 Omnibus Appropriations Bill requires all Inspectors General

        to submit a report to Congress on the implementation of the Rural

        Development Act of 1972. The OIG has started researching this area. In

        addition, reports from other OIGs have been reviewed and a draft report

        on the FEC’s implementation has been initiated. Once all the research has

        been completed, the report, which is due in June, will be finalized.



    •   The Commission’s Policy Legal Review Administrative Law office

        contacted the OIG regarding the OIG’s contract authority. FEC

        management asked the Administrative Law office to provide a legal

        opinion on whether the FEC OIG may enter into contracts absent

        Commission approval. To discuss the issue the OIG met with an attorney

        representing the Administrative Law office. The OIG provided the

        attorney with several documents that support the OIG’s contract authority.


October 1, 2003 – March 31, 2004                                               Page 18
        Those items included memorandums of understanding (MOU) between

        the OIG and the Staff Director, and the General Counsel., as well as a copy

        of the Inspector General Act. The Administrative Law office concluded

        that the OIG may enter into contracts without prior approval of the

        Commission.




October 1, 2003 – March 31, 2004                                              Page 19
                           ECIE AND PCIE ACTIVITY


        The Executive Council on Integrity and Efficiency was established by

Executive Order on May 11, 1992. It consists of Designated Federal Entity

Inspectors General and representatives of the Office of Government Ethics, the

Office of Special Counsel, the Federal Bureau of Investigation and the Office of

Management and Budget.



        The Commission’s Inspector General is an active member of the Executive

Council on Integrity and Efficiency (ECIE) and has provided input to a number of

initiatives proposed by the Council. The ECIE serves as a forum for the exchange

of views for the Inspector General Community. The Council identifies, reviews,

and discusses issues that are of interest to the entire IG Community. The IG

attended regular meetings held by the ECIE, and joint meetings of the President’s

Council on Integrity and Efficiency (PCIE) and the Executive Council on Integrity

and Efficiency.



        For the period October 1, 2003 through March 31, 2004, the Inspector

General (or staff) attended the following training, meetings, programs, seminars

and/or conferences:



        •   ECIE - Monthly Meetings

        •   PCIE – Inspections and Evaluations (I&E) Roundtable Discussion

October 1, 2003 – March 31, 2004                                               Page 20
        •   PCIE - Financial Statement Audit Network (FSAN) Meeting

        •   PCIE/ECIE – Annual Joint Meeting

        •   PCIE/ECIE – 2004 Inspectors General Retreat

        •   PCIE/ECIE – Meeting with President Bush

        •   PCIE/ECIE – Federal Audit Executive Council (FAEC) Meeting

        •   PCIE/GPRA - Human Resources Roundtable Discussion

        •   USDA Graduate School – Contracting Basics for Contracting Officer’s
            Technical Representative (COTR)

        •   USDA Graduate School – Contracting for Professional Audit Services

        •   USDA/OIG – 2004 Directors of Investigation Conference

        •   Institute of Internal Auditors (IIA) – Audit Command Language (ACL)

        •   Institute of Internal Auditors (IIA) – Auditing in Government
            Conference: Changing World…Changing Solutions

        •   Office of Management and Budget (OMB) – Program Assessment
            Rating Tool (PART) Training

        •   Management Concepts – CFO Reporting: Preparing Federal
            Financial Statements

        •   Joint Financial Management Improvement Program (JFMIP) –
            Improving Performances with Useful Financial Information

        •   Small Agency Council – Effective Writing (Intermediate)

        •   Federal Election Commission/Information Division – Campaign
            Finance Law Seminar for Candidates and Political Party Committees




October 1, 2003 – March 31, 2004                                            Page 21
IG ACT                  REPORTING REQUIREMENTS                                            PAGE



Reporting requirements required by the Inspector General Act of 1978, as amended by
the Inspector General Act Amendments of 1988 are listed below:


Section 4(a)(2)         Review of Legislation----------------------------------------------18

Section 5(a)(1)         Significant Problems, Abuses, and
                        Deficiencies-----------------------------------------------------None

Section 5(a)(2)         Recommendations with Respect to
                        Significant Problems, Abuses, and
                        Deficiencies-----------------------------------------------------None

Section 5(a)(3)         Recommendations Included in Previous
                        Reports on Which Corrective Action Has
                        Not Been Completed-(Table III) -------------------------------25

Section 5(a)(4)         Matters Referred to Prosecutive
                        Authorities-----------------------------------------------------None

Section 5(a)(5)         Summary of Instances Where Information
                        was Refused----------------------------------------------------None

Section 5(a)(7)         Summary of Significant Reports---------------------------------9

Section 5(a)(8)         Questioned and Unsupported Costs-(Table I)----------------23

Section 5(a)(9)         Recommendations that Funds be put
                        to Better Use (Table II)----------------- ------------------------24

Section 5(a)(10)        Summary of Audit Reports issued before
                        the start of the Reporting Period for which
                        no Management Decision has been made--------------------N/A

Section 5(a)(11)        Significant revised Management Decisions------------------N/A

Section 5(a)(12)        Management Decisions with which the
                        Inspector General is in Disagreement-----------------------None




October 1, 2003 – March 31, 2004                                                           Page 22
                                          TABLE I

                   INSPECTOR GENERAL ISSUED REPORTS
                        WITH QUESTIONED COSTS

                                                    DOLLAR VALUE (in thousands)

                                                    QUESTIONED    UNSUPPORTED
                                         NUMBER        COSTS          COSTS



A. For which no management                0              0               [0]
   decision has been made by
   commencement of the reporting
   period


B. Which were issued during               0              0              [0]
   the reporting period

        Sub-Totals (A&B)                  0              0              [0]


C. For which a management                 0              0              [0]
   decision was made during
   the reporting period

        (i) Dollar value of disallowed    0              0              [0]
            costs

        (ii) Dollar value of costs        0              0              [0]
             not disallowed


D. For which no management                0              0              [0]
   decision has been made by the
   end of the reporting period


E. Reports for which no management        0              0              [0]
   decision was made within
   six months of issuance




October 1, 2003 – March 31, 2004                                              Page 23
                                          TABLE II

         INSPECTOR GENERAL ISSUED REPORTS WITH
     RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE



                                                     NUMBER   DOLLAR VALUE
                                                               (in thousands)



A.      For which no management                       0             0
        decision has been made by
        the commencement of the
        reporting period

B.      Which were issued during                      0             0
        the reporting period

C.      For which a management                        0             0
        decision was made during
        the reporting period

        (i)     dollar value of                       0             0
                recommendations
                were agreed to by
                management

                based on proposed                     0             0
                management action

                based on proposed                     0             0
                legislative action

        (ii)    dollar value of                       0             0
                recommendations
                that were not agreed
                to by management

D.      For which no management                       0             0
        decision has been made by
        the end of the reporting period

E.      Reports for which no                          0             0
        management decision
        was made within six months
        of issuance




October 1, 2003 – March 31, 2004                                            Page 24
                                           TABLE III

    SUMMARY OF AUDIT REPORTS WITH CORRECTIVE ACTIONS
        OUTSTANDING FOR MORE THAN SIX MONTHS



                                                        Recommendations


                                   Report      Issue
Report Title                       Number      Date    Number   Closed Open

Agency Controls                    00-01       09/00    7        3       4
Governing the Process
for Procurement of Vendor
Training Services




October 1, 2003 – March 31, 2004                                       Page 25
                                                                        FEC / OIG Strategic Plan
                                                           OIG Process: To develop and implement                            OIG Staff: To maintain a skilled and motivated
 OIG Products: To provide products and
                                                           processes, policies, and procedures to ensure                    work force in an environment that fosters
 services that promote positive change in
                                                           the most effective and appropriate use of OIG                    accountability, communications, teamwork, and
 FEC policies, programs, and operations.
                                                           resources in support of our people and products.                 personal and professional growth.


 Objective A: Deliver timely, high-quality                                                                                  Objective A: Attract and retain well-qualified,
 products and services that promote                                                                                         diverse and motivated employees.
 positive change.                                            Objective A: Maintain a dynamic strategic
                                                             planning process.                                              Strategy:
                                                                                                                            - develop and implement a comprehensive recruiting program
 Strategy:                                                                                                                  that attracts a broad population with the knowledge, skills,
 - establish common OIG standards for communicating          Strategy:
                                                                                                                            abilities, and expertise necessary to make meaningful
 results;                                                    - periodically review and update the strategic plan to
                                                                                                                            contributions to the OIG;
 - conduct quality assurance programs;                       address changing OIG and FEC priorities; and,
                                                                                                                            - assess employee satisfaction and develop strategies to address
 - solicit appropriate internal and external review and      - identify factors that influence organizational change and
                                                                                                                            employee concerns;
 comment;                                                    develop short and long term plans to address them.
                                                                                                                            - identify reasons for staff departures and develop plans to foster
 - comply with applicable statutory guidelines and                                                                          greater staff retention; and,
 standards;                                                                                                                 - adhere to EEO principles and strive to maintain a diverse work
 - set realistic and appropriate milestones.                                                                                force.

 Objective B: Address priority issues and
 concerns of the Commission, Congress,
                                                             Objective B: Plan and conduct cost-
 and Management.
                                                             effective work that address critical issues                    Objective B: Provide training and developmental
 Strategy:     Perform work that supports;                   and results in positive change.                                opportunities to employees.
 - Federal Election Commission and Congressional
 priorities;                                                 Strategy:                                                      Strategy:
 - National Performance Review objectives;                   - solicit FEC and Congressional input in planning OIG          - assess training needs in relation not only to employee but also
 - Strategic Management Initiative efforts;                  activities;                                                    office needs as well;
                                                             - develop internal planning mechanisms to support FEC          - ensure that Government Auditing Standards in relation to
 Focus OIG attention in the following areas of emphasis:     goals and priorities;                                          training are adhered to; and,
 - managing change;                                          - ensure that priorities of IG are effectively communicated;   - maintain a reporting system to ensure that educational
 - resource allocation in relation to policy objectives;     and,                                                           requirements are met.
 - delivery of client service;                               - identify specific targets for OIG review that are the most
 - causes of fraud and inefficiency; and,                    cost-effective
 - automation and communication.



                                                             Objective C: Identify customer needs and
                                                             provide products and services to meet
 Objective C: Follow-up and evaluate                         them.                                                          Objective C: Assess, recognize, and reward,
 results of OIG products and services to                                                                                    when possible, performance that contributes to
 assess their effectiveness in promoting                     Strategy:                                                      achieving the OIG mission.
 positive change.                                            - establish new customer feed back mechanisms;
                                                             - consider and evaluate customers feedback when                Strategy:
                                                             planning and developing products and services;
 Strategy:                                                   - respond to Congressional inquires and request for
                                                                                                                            - develop and articulate expectations for each employee's
 - Identify, as appropriate, lessons learned to improve                                                                     performance, including contributions in meeting the mission &
                                                             briefing and testimony;
 timeliness and quality; and,                                                                                               goals of the OIG; and,
                                                             - promote open exchange of ideas and information through
 - conduct follow-up reviews to determine if intended                                                                       - ensure that rewards, when possible, are given in recognition of
                                                             outreach and through use of e-mail; and,
 results have been achieved.                                                                                                exceptional employee performance.
                                                             - receive, evaluate, and respond, as appropriate, to
                                                             information received through the OIG hotline and other
                                                             sources.


 Objective D: Satisfy customers,                             Objective D: Implement efficient, effective,
 consistent with the independent nature of                                                                                  Objective D: Create and maintain a working
                                                             and consistent resolution and follow-up                        environment that promotes teamwork and
 the OIG.                                                    procedures.                                                    effective communication.
 Strategy:                                                   Strategy:
 - establish professional communication and interaction                                                                     Strategy:
                                                             - ensure that IG follow-up procedures are followed and that
 with customers to promote the open exchange of ideas;                                                                      - ensure that communications between employees is open; and,
                                                             management is aware of their role in the process; and,
 - incorporate customer feedback, as appropriate; and,                                                                      - provide employees with the tools and incentives they need to
                                                             - establish common OIG standards for terminology, date
 - be open to customer-generated solutions and                                                                              adequately perform their duties.
                                                             maintenance and communications.
 options.


                                                             Objective E: Establish a positive and
                                                             productive working environment.

                                                             Strategy:
                                                             - reengineer or streamline OIG procedures to achieve the
                                                             most effective use of resources; and,
                                                             - ensure that necessary technologies, evolving and
                                                             otherwise, are made available to staff as needed.



 Performance Measures: Determine the
 timeliness and quality of products and                      Performance Measures: An annual audit                          Performance Measures: All employees meet
 services; their effectiveness in promoting                  plan is issued; strategic plan is periodically                 the training requirements; all employees have
 positive change; and, reach agreement                       reviewed; and, necessary technology is                         performance standards; and, all employees meet
 with management on at least 90% of                          provided to staff to enable them to most                       the basic requirements for the position in which
 recommendations within six months of                        efficiently perform their duties.                              they were hired to perform.
 the report issue date.




October 1, 2003 – March 31, 2004                                                                                                                                         Page 26
    CONTACTING THE OFFICE OF INSPECTOR GENERAL



The success of the OIG mission to prevent fraud, waste, and abuse depends on
the cooperation of FEC employees (and the public). There are several ways to
report questionable activity.




        Call us at 202-694-1015 or toll-free 1-800-424-9530. A confidential or
        anonymous message can be left 24 hours a day/7 days a week.




        Write or visit us - we are located at:   Federal Election Commission
                                                 Office of Inspector General
                                                 999 E Street, N.W., Suite 940
                                                 Washington, DC 20463

                                       Mail is opened by OIG staff members only.




                         You can also contact us by e-mail at: oig@fec.gov.
                         Our Website address: http://www.fec.gov/fecig.htm.

Individuals may be subject to disciplinary or criminal action for knowingly
making a false complaint or providing false information.



October 1, 2003 – March 31, 2004                                              Page 27
